<html>
<title> - THE IMPLEMENTATION OF THE NAZI WAR CRIMES DISCLOSURE ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





        THE IMPLEMENTATION OF THE NAZI WAR CRIMES DISCLOSURE ACT

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 27, 2000

                               __________

                           Serial No. 106-227

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               ----------

                   U.S. GOVERNMENT PRINTING OFFICE
72-522                     WASHINGTON : 2001


_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
               Heather Bailey, Professional Staff Member
                           Bryan Sisk, Clerk
           Trey Henderson, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 27, 2000....................................     1
Statement of:
    Kurtz, Dr. Michael J., Assistant Archivist of the United 
      States, National Archives and Records Administration; 
      Elizabeth Holtzman, esq.; Thomas Baer, and Richard Ben-
      Veniste, members of the Interagency Working Group; Kenneth 
      Levit, special counsel, Office of the Executive Director, 
      Central Intelligence Agency; John Collingwood, Assistant 
      Director, Office of Congressional and Public Affairs, 
      Federal Bureau of Investigation; and Colonel Lewis 
      Thompson, Commander of the 902d Military Intelligence 
      Group, Intelligence and Security Command, U.S. Army........     7
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California..............................................    59
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York......................................    48
Letters, statements, etc., submitted for the record by:
    Baer, Thomas, member, Interagency Working Group, prepared 
      statement of...............................................    25
    Collingwood, John, Assistant Director, Office of 
      Congressional and Public Affairs, Federal Bureau of 
      Investigation, prepared statement of.......................    35
    Holtzman, Elizabeth, esq., prepared statement of.............    21
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Information concerning derogatory information............    91
        Letter dated February 8, 2000............................    70
        Prepared statement of....................................     3
    Kurtz, Dr. Michael J., Assistant Archivist of the United 
      States, National Archives and Records Administration, 
      prepared statement of......................................     9
    Lantos, Hon. Tom, a Representative in Congress from the State 
      of California, prepared statement of.......................    61
    Levit, Kenneth, special counsel, Office of the Executive 
      Director, Central Intelligence Agency, prepared statement 
      of.........................................................    30
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    49
    Thompson, Colonel Lewis, Commander of the 902d Military 
      Intelligence Group, Intelligence and Security Command, U.S. 
      Army, prepared statement of................................    45
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................     5

 
        THE IMPLEMENTATION OF THE NAZI WAR CRIMES DISCLOSURE ACT

                              ----------                              


                         TUESDAY, JUNE 27, 2000

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154 Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Biggert, Turner, Maloney, 
and Owens.
    Staff present: J. Russell George, staff director and chief 
counsel; Heather Bailey, professional staff member; Bonnie 
Heald, director of communications; Bryan Sisk, clerk; Will 
Ackerly, Chris Dollar, and Meg Kinnard, interns; Trey 
Henderson, minority counsel; and Jean Gosa, minority clerk.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Management, Information, and 
Technology will come to order.
    The Nazi War Crimes Disclosure Act of 1998 was enacted to 
ensure that documents held by the U.S. Government that pertain 
to the Holocaust would be declassified and made available to 
the public.
    In October 1999, the National Archives and Records 
Administration and the Interagency Working Group released an 
interim report to Congress on the declassification of these 
Second World War documents. According to the report, more than 
300,000 pages of documents were to have been declassified by 
the fall of 1999. But at the time, less than half of that 
amount had been declassified.
    Since then, most agencies have picked up the pace to 
declassify documents of this era. Yesterday, the Interagency 
Working Group announced 400,000 pages of newly declassified 
documents were released today, mostly from the Office of 
Strategic Services, a forerunner of the Central Intelligence 
Agency.
    By the time this declassification process is completed, 
roughly 5 to 8 million pages documenting this horrific period 
in history will be available for public scrutiny.
    I would especially like to welcome representative Tom 
Lantos, my colleague from California, who authored the Nazi War 
Crimes Disclosure Act. I welcome all of our witnesses today, 
and look forward to their testimony.
    And I welcome Mrs. Maloney.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.001
    
    Mr. Horn. So we have the group before us that has really 
done a wonderful job in pressing all of the various points of 
the executive branch to make sure that this complete bipartisan 
proposal was made several years ago in both the Senate and the 
House, and we are glad to have with us today the ones as we 
have entitled this, the government compliance on the Nazi War 
Crimes Disclosure Act. We look forward to you witnesses, who 
have devoted a tremendous amount of your time, and we will give 
you a little background.
    I think you have all been here before. Since we are an 
investigative committee, we do swear in all witnesses. When we 
have called upon you in accord with the agenda, the full text 
of your written remarks goes automatically into the record. We 
don't want you to read your written remarks. We don't have the 
time for it.
    Take about 5 to 8 minutes for each person. What we want is 
a dialog after all of that to see where the loose ends are and 
what can be done by you and what can be done by the Congress, 
if we need to do it.
    For example, Japanese war crimes and other situations like 
that, do we need to amend the law? Can we do it under this 
authority?
    I have a lot of lawyers in front of me with no fees to send 
to me, so we would welcome your views, gentlemen.
    So stand if you will, and I am going to swear you in and 
then Mr. Turner will make an opening statement.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all witnesses have said 
yes, and I now yield to the gentleman from Texas, Mr. Turner, 
for an opening statement.
    Mr. Turner. Mr. Chairman, I will just file my opening 
statement for the record.
    [The prepared statement of Hon. Jim Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.002
    
    [GRAPHIC] [TIFF OMITTED] T2522.003
    
    Mr. Horn. Mrs. Maloney or Mrs. Biggert.
    We will go directly to our guests and again we are 
delighted with all of you and your hard work.
    We will start with Dr. Michael J Kurtz, Assistant Archivist 
of the United States for the National Archives and Records 
Administration.

STATEMENTS OF DR. MICHAEL J. KURTZ, ASSISTANT ARCHIVIST OF THE 
 UNITED STATES, NATIONAL ARCHIVES AND RECORDS ADMINISTRATION; 
ELIZABETH HOLTZMAN, ESQ., THOMAS BAER, AND RICHARD BEN-VENISTE, 
   MEMBERS OF THE INTERAGENCY WORKING GROUP; KENNETH LEVIT, 
  SPECIAL COUNSEL, OFFICE OF THE EXECUTIVE DIRECTOR, CENTRAL 
  INTELLIGENCE AGENCY; JOHN COLLINGWOOD, ASSISTANT DIRECTOR, 
 OFFICE OF CONGRESSIONAL AND PUBLIC AFFAIRS, FEDERAL BUREAU OF 
  INVESTIGATION; AND COLONEL LEWIS THOMPSON, COMMANDER OF THE 
  902d MILITARY INTELLIGENCE GROUP, INTELLIGENCE AND SECURITY 
                       COMMAND, U.S. ARMY

    Mr. Kurtz. Thank you. I am appearing here in my capacity as 
Chair of the Interagency Working Group for implementing the 
Nazi War Crimes Disclosure Act of 1998. On behalf of the IWG, I 
would like to thank you for holding this hearing and for your 
ongoing leadership on this matter. And certainly I want to note 
the contribution of Congresswoman Maloney in sponsoring the 
original legislation and the interest of Congressman Lantos and 
Senator DeWine.
    I would like to briefly introduce the panel members. 
President Clinton appointed three public members to serve on 
the Interagency Working Group, and we have all three members--
former Congresswoman Elizabeth Holtzman, who has been involved 
with these issues for a considerable period of time; Mr. Thomas 
Baer, former Assistant U.S. Attorney and businessman who joins 
us from Los Angeles, CA; Mr. Richard Ben-Veniste, well known 
for his service to Congress and the government in a variety of 
capacities.
    Next to Mr. Ben-Veniste we have Kenneth Levit, who 
represents the Central Intelligence Agency, and John 
Collingwood from the FBI and Colonel Thompson, Commander of the 
902nd Military Intelligence Group which has jurisdiction over 
some of the most important Army records.
    I think everyone is well aware of the bill and what we are 
charged to do, and I would like to report what we have achieved 
since our October interim report and mention several challenges 
that lie ahead of us.
    The agencies have screened, originally, approximately 600 
million pages as potentially relevant to the act, records that 
might contain war crimes information. That has been refined to 
approximately 90 million pages, and so the search for relevant 
documents continues as well as the declassification effort. To 
date, we have declassified 1.5 million pages for release. And 
we estimate, by the end of the project, we should have 5 to 8 
million pages completed after the relevant searches have been 
completed and the declassification actions.
    The agencies that we have here on the panel are the ones 
that have the bulk of the documentation that remains to be 
reviewed, and this--the way we organized our work, the 
Interagency Working Group first focused on what we called phase 
one, which is Germany and the European Theater of Operations; 
and we are beginning to focus on phase two, which relates to 
Japan and the Far Eastern situation. So we will be dealing with 
the totality of war crimes activities, worldwide, as part of 
World War II and its aftermath.
    There is an extensive amount of work to do. We have a 
statutory deadline of January 2002, to complete our work, and 
it is a very daunting task. There is a great deal, obviously, 
from the brief summary that I have given of how much remains to 
be done. In addition, we need to begin the work with the 
Japanese records.
    I should also note, as far as resources go, we have not 
received a direct appropriation to support this effort. But 
through the support from the Office of Special Investigations 
of the Department of Justice and from the National Archives and 
from the Archivist, we have received financial support that has 
enabled us to set up a very important infrastructure. By that I 
mean, we have two historians who serve as consultants to the 
IWG.
    The validity of that approach was proven yesterday with the 
release of documentation and their ability to put it into 
context and not just have a disgorging of a mass of undigested 
documentation.
    We also have an audit team working for the IWG that works 
with the agencies to review their declassification actions, to 
raise any issues to our attention and facilitate an early 
resolution.
    I would also note that as we are going through our work we 
have ascertained that a great deal of the documentation is in 
very poor physical condition requiring some extensive 
preservation action which I would be glad to discuss later. 
There is also a need for continued staff and enhanced staff 
support for the IWG to get through the remaining work related 
to Germany as well as dealing in the Far Eastern arena. So I 
would like to just conclude my comments and permit time for 
others to speak.
    Mr. Horn. Thank you very much.
    [The prepared statement of Dr. Kurtz follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.004
    
    [GRAPHIC] [TIFF OMITTED] T2522.005
    
    [GRAPHIC] [TIFF OMITTED] T2522.006
    
    [GRAPHIC] [TIFF OMITTED] T2522.007
    
    [GRAPHIC] [TIFF OMITTED] T2522.008
    
    [GRAPHIC] [TIFF OMITTED] T2522.009
    
    [GRAPHIC] [TIFF OMITTED] T2522.010
    
    [GRAPHIC] [TIFF OMITTED] T2522.011
    
    [GRAPHIC] [TIFF OMITTED] T2522.012
    
    [GRAPHIC] [TIFF OMITTED] T2522.013
    
    Mr. Horn. We will now call on Elizabeth Holtzman, former 
Member of Congress and a member of the Interagency Working 
Group. Welcome.
    Ms. Holtzman. Thank you, Mr. Chairman. It is a pleasure to 
appear before you. Again I want to join the Chair of the IWG in 
acknowledging your leadership and that of Representative 
Carolyn Maloney, without whose help we would not be here today.
    I will skip most of my prepared remarks to focus on what 
the challenges are in the future. The first issue, in my 
opinion, has to do with finishing the job of declassification. 
I think it is important to note that despite serious and 
intensive efforts being made by all of the agencies, only a 
fraction of the job of declassification has been completed. I 
believe this committee needs to ascertain how the agencies 
expect to finish their task within the 3 years of IWG's 
existence.
    Remember, the process of declassification thus far has been 
on a page-by-page, line-by-line method and that going through 
millions of pages, page by page, line by line is extremely 
time-consuming. I need to point out, too, that even though it 
has taken us this long to get this far and we are nowhere near 
complete, we have not yet touched the issue of the Japanese war 
crimes and that is another huge area. I would ask the committee 
to consider whether this can all be accomplished within the 
legislative framework, and what the committee can do to help us 
speed up this process. And this is not to diminish from the 
intensive effort that the agencies are making at that point.
    The second issue has to do with the completeness of our 
search. As the members of this committee probably know, there 
is no magic button that you can push that states Nazi war 
criminals and you get all of the files. In fact, most of the 
files are organized by name and so you need to know the name of 
the Nazi war criminal. You have to know the answer before you 
even ask the question.
    Part of this problem has been addressed by Eli Rosenbaum 
and the Office of Special Investigations, which has compiled a 
list of some 57,000 former SS officers. That list has been 
enhanced by the U.N. War Crimes Commission list and 
supplemented by several hundred other names.
    But I think it is fair to say, Mr. Chairman and members of 
this committee, that those names are just a fraction of the 
universe of war criminals. If we just look for those names, we 
will never find the totality of Nazi war criminals, and it is 
hard to say what percentage we will have found. I believe we 
have to develop new strategies to become more inclusive.
    One strategy I suggest is to consider as relevant all files 
under programs that we know employed numbers of Nazi war 
criminals, such as Operation Rollback, and there may be a 
variety of others. If we have to operate only on the basis of 
knowing the answer before we ask the question, we will never be 
able to get the answers that we need.
    The third issue is a familiar one to Members of Congress, 
but I also read the front pages of the paper today, so it 
should not be quite as difficult as it has been in the past, 
and that has to do with resources.
    You will be very pleased to note that we have been 
extremely economical. We have operated on the thinnest, 
narrowest shoestring we have ever seen. We don't have a full-
time staff director; we don't have a staff. We have been 
functioning, thanks to Michael Kurtz and the National Archives, 
with borrowed resources; and we have done, I think, an amazing 
job. But we can't do it anymore on this shoestring because, as 
probably you have seen in the Washington Post today--it was a 
very important story, indicating the significance of some of 
the materials that have just recently been declassified--we 
have to hire two historians to accomplish that result; and they 
themselves will not be able to go through 8 million pages of 
documents and begin to tell the American people what the 
significance of the materials is.
    Dr. Kurtz pointed to the necessity of preservation of 
materials. We have worked with a number of committees, on both 
the Senate and the House side, on a bipartisan basis because 
this is a bipartisan matter, to get some funding to permit us 
to do our job properly; and I would hope that this committee 
would assist us in that effort. I believe we have asked for $5 
million, and I would hope that we can get your support in that 
effort.
    Thank you very much, Mr. Chairman and members of the 
committee.
    Mr. Horn. Thank you. Those are very good challenges and we 
need to get a thorough airing of them before we close up the 
session this morning.
    [The prepared statement of Ms. Holtzman follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.014
    
    [GRAPHIC] [TIFF OMITTED] T2522.015
    
    [GRAPHIC] [TIFF OMITTED] T2522.016
    
    Mr. Horn. Mr. Baer, you are a member of the Interagency 
Working Group?
    Mr. Baer. Yes, sir.
    Thank you, Mr. Chairman for the opportunity to address you 
and to comment on our work. I also want to take this 
opportunity to thank Michael Kurtz and staff and the other 
members of the IWG represented here today. All have made a 
sincere commitment to fulfill our mandate. The agency heads and 
their representatives have made a concerted effort to 
declassify documents 60 years on, but much remains to be done.
    Because the Nazi War Crimes Disclosure Act, under which 
they are operating, imports the exceptions to declassification 
contained in the Defense Act of 1947, such as sources and 
methods, the agencies have taken the position that a page-by-
page review, which Ms. Holtzman just referred to, is indicated 
as opposed to bulk declassification.
    I strongly believe that bulk declassification is 
permissible under the statute, but I have not been successful 
in persuading the agencies. Without engaging in any extended 
analysis, which I will be glad to do, the gist of my argument 
is that the statute says that the agency heads may invoke the 
exceptions, not that they must do so.
    When one measures the time and expense attendant upon page-
by-page review against the possible danger to the security of 
the United States arising from bulk declassification of World 
War II and cold war documents, it would appear that the 
benefits of bulk declassification outweigh the detriments of 
revelation of source and method secrets of the 1940's and 
1950's. I believe that this analysis would justify agency head 
discretion to bulk declassifying for most agencies and most 
collections.
    The agencies differ. They say that revelation of sources 
and methods of the 1940's and 1950's imperils their operations 
today. Learned Hand wrote, ``The spirit of liberty is the 
spirit that is not too sure it is right.'' Similarly, I confess 
that I am not too sure that I am right. On the merits of what 
we have released and what we will release in the future, it 
will be for historians to judge its significance--an 
opportunity, Mr. Chairman, that this overdue and wise 
legislation finally affords them.
    I will be glad to answer any questions later on. Thank you.
    Mr. Horn. Thank you very much.
    [The prepared statement of Mr. Baer follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.017
    
    [GRAPHIC] [TIFF OMITTED] T2522.018
    
    Mr. Horn. We now go to Mr. Ben-Veniste, member of the 
Interagency Working Group.
    Mr. Ben-Veniste. Thank you, Mr. Chairman. I am happy to 
report the substantial progress that is reflected in Dr. 
Kurtz's statement and the substantial materials which are 
appended to his formal statement by way of a report to this 
committee.
    Yesterday's release of 400,000 pages of OSS documents and 
the media coverage that it received, including today's front 
page story in the Washington Post, reflects the importance of 
the new material which was released. In particular, the 
information related to the intercepted and decoded messages 
from the Nazi high command, relating to the Nazi's murderous 
plan for the Jews of Italy in the fall of 1943, will continue 
to stimulate the debate about whether something could have been 
done to provide assistance to the Jews of Italy. After all, the 
Italian people were unwilling, despite the Axis Alliance to 
carry out Hitler's plan for the murder of the Jewish population 
of Europe. And yet when these materials were made available and 
decoded and available in real time, nothing was done to provide 
warning to the Jews of Italy, and that is reflected in the 
documents that were released yesterday. And that is a 
reflection of the strength of our democracy in being able to 
shed light on these materials.
    After all, they would not have been made available but for 
the fact that the British foreign intelligence services, 
together with the CIA and the efforts of Director Tenet and Mr. 
Levit here at my left in persuading the British intelligence 
services to release this material was responsible for its being 
made available yesterday. It could not have been made available 
but for these efforts.
    The material released also touches on other areas of vital 
interest to supplement the historical record. For example, the 
Allied treatment of Nazi war criminals during the postwar 
period is very much reflected in some of the materials we 
received yesterday, and we expect a great deal more information 
to be released on that subject. Similarly, business 
relationships, including insurance contracts and what happened 
with those, are also reflected in these materials.
    We are hopeful that the attention received from the 
disclosures will stimulate World War cooperation from 
governments who still maintain the stamp of secrecy on 
documents of important historical value. Our country owes you 
and others on this committee, Mrs. Maloney and others, and in 
the Senate as well as President Clinton, a debt of gratitude 
for putting our country in the forefront of openness and 
strength in carrying forth the objectives of this important 
legislation. This is, as it should be, in our democracy.
    I would like, on a personal note, to express my deep 
appreciation for the work of Dr. Kurtz and his staff at the 
National Archives. They have worked unfailingly to make the 
objectives of this legislation a reality; and of course there 
is much, much more work to be done and more to come. Our panel 
of experts are also owed a debt of gratitude.
    This was a proposal that sort of came about, I think, 
stimulated by the public members reflecting on the fact that we 
did not have the historical basis within our own resources to 
analyze this material, to separate the wheat from the chaff and 
the new from the old. And it is our fervent hope that with the 
supplemental appropriation, we will be able to provide much 
more in the way of resources to analyzing this information and 
to explaining it, as was done yesterday with respect to only 
400,000 pages of material, only a portion of which our 
historical panel had the opportunity to actually review, simply 
by reason of resources and no other reason--certainly not from 
lack of interest.
    I would also like to thank the CIA and the FBI and Director 
Tenet and Director Freeh, as well as the Department of the 
Army, for their commitment to carry out this--the objectives of 
this legislation, again without any direct appropriation to do 
so.
    The funds that have been requested I think will be very 
well spent for the purposes of providing additional resources 
in historical analysis, in preserving the documents, many of 
which are deteriorating, many of which were on paper that was 
used during World War II, where maybe these kinds of materials 
was not of the best quality. In fact, they used inferior 
quality paper, which is in the process of deteriorating.
    Finally, I think these resources, additional resources, 
will provide us the opportunity to hold an international 
symposium where we can explain the efforts that our government 
has made, the challenges which we have faced and--to stimulate 
discussion and, hopefully, emulation from other democracies 
throughout the world to do what we have attempted to do and are 
beginning to do with our own records.
    Thank you, Mr. Chairman.
    Mr. Horn. We thank you for that excellent presentation.
    We now have Kenneth Levit, Special Counsel, Office of the 
Executive Director to the CIA.
    Mr. Levit. Thank you, Mr. Chairman. It is a pleasure to be 
here today to report to you about the progress of the Central 
Intelligence Agency with regard to the Nazi War Crimes 
Disclosure Act. I can report to you that the declassification 
effort pursuant to this act is among the largest records 
declassification effort in our history. CIA is committed to a 
thorough search for all documents that may have anything to do 
with Nazi war crimes, so they can be identified and 
declassified in an expeditious manner.
    As you alluded to in your statement, Mr. Chairman, 
yesterday CIA and the National Archives released to the public 
over 400,000 pages of previously withheld records relating to 
the Office of Strategic Services, that deal with World War II 
and the European Theater. Much of this material deals directly 
on the issue of war crimes, and approximately 6,100 pages of 
that collection were released exclusively as a result of CIA's 
program to implement the act and reflect our commitment to work 
with foreign governments who passed us intelligence, in secret, 
related to war crimes.
    The vast majority of the 6,100 pages contain information 
from original foreign government reports or from foreign 
government sources, usually British or French, and consist 
primarily of POW interrogation reports, refugee and emigre 
debriefings, OSS missions into France and Norway, Operation 
Safe Haven, the interagency program to identify and block the 
transfer of German assets, as well as British intercepts of 
German messages between Rome and Berlin.
    I should say that these releases came as a result of the 
direct efforts and hard work by Director Tenet to reach out to 
his foreign colleagues that run the services, the intelligence 
services, of these countries so that these documents could be 
released. Director Tenet has taken a personal interest in 
ensuring that these records can be opened and as much can be 
made known as possible with regard to these war crimes and 
their history.
    The debriefing reports of refugees and emigres, many of 
whom narrowly escaped persecution or death at the hands of the 
Nazis, add significant detail to the historical record and to 
our understanding of the period of time. CIA has redacted very 
little information from the OSS records, and in fact we have 
not held--and particularly with regard to the 6,100 pages of 
foreign government records, a single page that we have 
identified as relevant. And the very few redactions consist of 
names and other identifications of British sources and the 
names of CIA employees.
    I think this speaks well of the way that the legislation 
was crafted and, more importantly, the spirit of the 
legislation, which CIA and the Intelligence Community on behalf 
of the work of Director Tenet is seeking to implement in its 
full spirit.
    In addition to the first tranche of 6,100 pages, we expect 
to release an additional 3,096 pages of OSS material in the 
coming weeks, that we feel is directly relevant to the issue of 
war crimes.
    I would also like to report to you, Mr. Chairman, that our 
efforts will not stop at the OSS; rather, our search for 
relevant documents will also address the records of the CIA, 
including the operational files that are otherwise exempt from 
the 25-year declassification program, as well as the Freedom of 
Information Act. There is no blanket exemption. Relevant 
documents will be identified and, where possible, declassified 
to the fullest extent.
    A couple of months ago the Interagency Working Group came 
to closure on the approach CIA would use to declassify many of 
its most sensitive files, and the public can expect significant 
releases of CIA material by the end of summer.
    In closing, Mr. Chairman, I will only reiterate the 
commitment of Director Tenet and of the CIA in this effort. We 
hope that we will do all that we can in order to allow as much 
relevant material as possible to be fully released. These 
documents provide powerful testimony to our generation and to 
those of the future. By learning from them, we may hope to be 
better equipped to fulfill our common commitment, the 
commitment to ``never again.''
    Mr. Horn. Thank you. That was a very thorough statement.
    [The prepared statement of Mr. Levit follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.019
    
    [GRAPHIC] [TIFF OMITTED] T2522.020
    
    [GRAPHIC] [TIFF OMITTED] T2522.021
    
    Mr. Horn. We now have Mr. John Collingwood, Assistant 
Director, Office of Congressional and Public Affairs, FBI.
    Mr. Collingwood. Thank you, Mr. Chairman.
    The most important thing that I can communicate to the 
committee today is that we in the FBI collectively share the 
enthusiasm that your committee has for this project. 
Recognizing that the FBI is primarily a domestic agency with 
mostly domestic records, already we have physically reviewed 
approximately 1.9 million pages and have identified and are 
processing for release 166,000 pages relevant under the act.
    As Congresswoman Holtzman described, the challenge for the 
FBI, as for all agencies, is to locate relevant records within 
our central record system, a system of records that has been in 
existence since 1921. Arguably, when we finish, we will have 
screened approximately 6 billion pages of records. The vast 
majority, as you would expect, however, will not be relevant. 
They will pertain to traditional FBI-type activities--bank 
robberies, organized crime, cybercrime and terrorism--and these 
are, as Congresswoman Holtzman described, normally retrievable 
through indices searches.
    To ensure that we comply with the act, and comply not only 
with the letter of the act but with the spirit of the act, we 
have worked with the group, the IWG, and Archives to develop 
what we describe as a three-pronged approach to resolving this 
dilemma.
    The first is through the traditional indices search 
mechanism. We have conducted approximately 60,000 name searches 
against both our automated indices and our manual indices. We 
have, as well, identified--working with Archives, identified 
nine file series that the FBI maintains that most likely would 
contain relevant documents. The file series--and the FBI 
maintains its records in file series, such as all bank 
robberies are put together and all terrorism cases are put 
together--is ongoing; and we have identified nine separate 
series that are most likely to contain relevant materials. We 
have finished the review of six of those series, and the 
remainder are in process.
    In addition, we are--as we go through these records, we are 
identifying and conducting additional research on our own. We 
are searching out records that pertain to names of individuals 
and organizations and operations that we find in the records 
that are produced. The results, to date, hopefully reflect our 
enthusiasm for this project.
    Of the 1.9 million actual pages that I identified, 166,000 
have been deemed relevant; 149,000 came through indices 
searches, and another 11,000 came through the file by file 
searches that are ongoing, and additional research has 
identified an additional 27,000 pages. We are processing those 
pages as resources permit and accessioning them to Archives as 
quickly as we can; and consistent with the other agencies' 
approach to this, the redactions are minimal, and often 
instances of redactions are limited to the simple number of the 
source or the like. The primary redactions from the FBI are 
those instances of information received from foreign 
governments, and we expect that information ultimately to be 
disclosed.
    In conclusion, I think we are clearly committed to 
releasing the maximum volume of records, whether previously 
classified or not. The FBI for a long time didn't mark 
documents for classification because we maintain all of our 
documents as if they were classified. We have spent 
approximately $2 million on this effort. We have 31 people 
working full time, and we are absolutely committed to finishing 
on schedule and know of no reason that we will not.
    From a personal standpoint, I would like to mention that it 
was not until this project that I personally had an 
appreciation for what Archives does for this country. Dr. Kurtz 
and all of his staff and everybody at the National Archives 
make a contribution to preserving the history of this country 
that I never before realized the magnitude and I suspect that 
the American people do not realize the importance of. They are 
really the unsung heroes when it comes to this type of thing.
    Finally, I am not sure, as the legislation was drafted, who 
had the idea of adding public members to the IWG, but it was 
indeed a brilliant idea. Anyone who suspects in any way, shape 
or form that any of the government agencies that are involved 
in this effort are going to be less than fully forthcoming with 
their documents need only discuss that with our three public 
members, who provide us the closest possible oversight.
    Thank you.
    Mr. Horn. Thank you.
    [The prepared statement of Mr. Collingwood follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.022
    
    [GRAPHIC] [TIFF OMITTED] T2522.023
    
    [GRAPHIC] [TIFF OMITTED] T2522.024
    
    [GRAPHIC] [TIFF OMITTED] T2522.025
    
    [GRAPHIC] [TIFF OMITTED] T2522.026
    
    [GRAPHIC] [TIFF OMITTED] T2522.027
    
    [GRAPHIC] [TIFF OMITTED] T2522.028
    
    [GRAPHIC] [TIFF OMITTED] T2522.029
    
    [GRAPHIC] [TIFF OMITTED] T2522.030
    
    Mr. Horn. Colonel Lewis Thompson is Commander of the 902d 
Military Intelligence Group of the Intelligence and Security 
Command of the U.S. Army. I was fascinated by your piece here, 
because I was in the 458th Strategic Intelligence Unit, and we 
had a whole bunch of German-speaking colonels. You could have 
used them and put them to work.
    Colonel Thompson. Mr. Chairman and members of the 
subcommittee, I appreciate the opportunity to represent the 
Army and provide testimony on this important subject.
    I am Colonel Lewis Thompson, the Commander of the 902d 
Military Intelligence Group, U.S. Army Intelligence and 
Security Command. My group conducts the Army's strategic 
counterintelligence mission. My group also contains the Army's 
investigative records repository.
    With me today are two substantive experts, Lieutenant 
Colonel Jasey Briley, the Commander of the 310th Military 
Intelligence Battalion that houses the Investigative Records 
Repository; and Mr. Andy Swicegood, from the battalion 
operations section.
    The Investigative Records Repository is the Army's 
repository for some intelligence and all counterintelligence 
related investigative files. It contains over 1.9 million pages 
of paper and microfilm files, some of which date back to World 
War II. These aging files and film have been deteriorating for 
many years. Recognizing their historical value, the Army 
initiated efforts in 1992 to digitize all of the holdings in 
the repository.
    In 1995, the President signed Executive Order 12958 
requiring the review for declassification determination of all 
classified holdings 25 years of age or older, to be completed 
not later than April 21, 2000.
    In October 1998, the Nazi War Crimes Disclosure Act was 
signed requiring us to review all repository holdings, 
declassify to the maximum extent possible related files and 
provide those files to the National Archives and Records 
Administration.
    The digitization of the files in our repository that began 
in 1992 is not directly related to the Executive order or 
public law, but facilitates our compliance with both. In order 
to comply with the Nazi War Crimes Disclosure Act, we must 
review over 1.9 million files, subsequently releasing what we 
currently estimate to be 15,000 files pertinent to the act. 
Without the digitization initiative, we estimate the process 
would take more than 181 man-years to complete. With 
digitization, we estimate we will be able to complete the task 
in about 7 months.
    In order to facilitate this effort, the Secretary of the 
Army has made $1.3 million available to the U.S. Army 
Intelligence and Security Command for the conversion of the 
reels of microfilm to optical disk. I currently have over 100 
military and civilian employees dedicated to this effort, 
working three shifts around the clock 6 days a week, with the 
7th day allocated to systems maintenance and backup. We are 
working toward a completion date of October 1, 2000.
    Thank you for the opportunity to provide this testimony 
today. I would be happy to answer any questions you might have.
    Mr. Horn. Thank you very much.
    [The prepared statement of Colonel Thompson follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.031
    
    [GRAPHIC] [TIFF OMITTED] T2522.032
    
    [GRAPHIC] [TIFF OMITTED] T2522.033
    
    Mr. Horn. Right now we are going to turn to two of our 
Members who are very devoted to this issue. We mentioned 
earlier Mrs. Maloney, she will be one of them, and the 
Honorable Tom Lantos, who has a great perspective of the whole 
historical situation.
    I believe Mrs. Maloney has some comments and then Mr. 
Lantos.

   STATEMENT OF HON. CAROLYN B. MALONEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mrs. Maloney. First of all, I would like to congratulate 
all of the members of the panel and the members of the public 
group that I made sure were part of the legislation--Tom Baer, 
Richard Ben-Veniste and my good friend, Liz Holtzman, who has a 
long history of accomplishment on this issue.
    I must say that this was one of the first bills that I 
introduced in 1992, and it was a long, hard effort to get it 
passed into law; and I congratulate my dear friend and 
colleague, Chairman Horn, for his consistent support. We had 
many, many hearings, probably more than he would like, but he 
was always there with hearings, with oversight, and in support 
of the legislation; and of course Senator DeWine, who carried 
it in the Senate.
    Congressman Lantos is an incredibly important Member of 
Congress on many fronts. He also brings a deep understanding, 
as the only Holocaust survivor to be elected to Congress, and 
he is certainly a moral mentor to me and to all of our 
colleagues.
    I would like to put my comments in the record, but I would 
like to respond with a few questions to the people who are here 
today; and you are just in time, because the supplemental 
budget may be on the floor this week, and as you said, we need 
to get our $5 million, or extra, resources in.
    I am glad it was enacted into law, but I am very concerned 
about certain foreign nations that are not cooperating with us 
in the release of documents. It is very, very important, and it 
is incredibly important that we complete the work, including 
Japan--a complete analysis of what happened in Japan. And many 
of the people here have said that you expect that you will be 
able to complete the work by October 2001, and I believe that 
would include the Japanese aspect also.
    All I can say is that it is incredibly important. These 
documents will increase all our understanding of what happened, 
when it was known, what efforts were there to protect Nazi war 
criminals after the war, why those efforts were there; and I 
have a series of questions, and then I hope my colleagues on 
this panel will join me in working to make sure that the moneys 
are part of the supplemental that come up today.
    But I think you've started an important journey, but we 
must complete it with all of the aspects, including Japan.
    I yield back the balance of my time.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T2522.034

[GRAPHIC] [TIFF OMITTED] T2522.035

[GRAPHIC] [TIFF OMITTED] T2522.036

[GRAPHIC] [TIFF OMITTED] T2522.037

[GRAPHIC] [TIFF OMITTED] T2522.038

[GRAPHIC] [TIFF OMITTED] T2522.039

[GRAPHIC] [TIFF OMITTED] T2522.040

[GRAPHIC] [TIFF OMITTED] T2522.041

[GRAPHIC] [TIFF OMITTED] T2522.042

[GRAPHIC] [TIFF OMITTED] T2522.043

    Mr. Horn. Now with the next witness, both a member and a 
colleague, we are delighted to have Mr. Lantos here, the 
gentleman from California, who probably knows more on this 
subject than the rest of us put together.

STATEMENT OF HON. TOM LANTOS, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Lantos. Thank you, Mr. Chairman. I want to associate 
myself with the laudatory comments of my friend, Congresswoman 
Maloney, with respect to the group before us and the ones who 
may not be here.
    Mr. Chairman, I have a comprehensive statement I would like 
to place in the record.
    Mr. Horn. We will put it in the record as read.
    Mr. Lantos. First, I want to thank you for your unwavering 
support and strong and deep personal commitment to bring to 
justice Nazi war criminals through the full declassification of 
documents in possession of the National Archives. I also want 
to thank my good friend, Jim Turner, the ranking member, for 
his invaluable work. And I would be derelict in my 
responsibilities if I did not pay tribute to the former ranking 
member, Dennis Kucinich, for his strong commitment to 
declassification issues in the pursuit of Nazi war criminals 
and human rights offenders around the world.
    I want to single out Congresswoman Maloney, who introduced 
this legislation and shepherded it through, and who has a 
passionate and deep personal commitment to bring justice and 
closure to this issue and all other issues; and I publicly want 
to thank her for this.
    I also want to recognize the contribution of my friend, 
Senator Mike DeWine.
    Mr. Chairman, the goal of the Nazi War Crimes Disclosure 
Act is to declassify and make public any remaining documents in 
U.S. possession concerning Nazi crimes, criminals, and looted 
property. At the same time, this right to know must be balanced 
against legitimate reasons to continue to withhold certain 
documents. Since we are dealing with documents that are half a 
century old, clearly the bias should be in favor of 
declassification.
    President Clinton created the IWG. It is composed of a 
group of most distinguished individuals, and they have done an 
outstanding job in fulfilling this mandate. Some million and a 
half pages have been released, 400,000 pages were released just 
yesterday with some startling consequences. These documents are 
now available to the public, to scholars at the National 
Archives.
    I regret, Mr. Chairman, that we in Congress have failed to 
provide the funds needed for the work of declassification, but 
fortunately, the National Archives and the Office of Special 
Investigations provided some funding to assist in the project. 
We in Congress should do more to fund this important task.
    I would like to say a word about the Japanese issue, Mr. 
Chairman. While the original legislation does include language 
that permits declassification of records relating to war crimes 
created under the Imperial Japanese Government, there are some 
areas where additional legislation is necessary. I am currently 
completing draft legislation which my staff has discussed with 
officials of the National Archives. My written statement 
includes considerable detail on this legislation; I expect to 
introduce it within the next few days. Among the most important 
provisions of my legislation will be to extend the life of 
declassification for 1 more year.
    A great deal has been accomplished, but much remains to be 
done and this additional year is essential for the work to be 
completed.
    I want to thank you, Mr. Chairman, and I hope the 
subcommittee will consider my legislation expeditiously.
    [The prepared statement of Hon. Tom Lantos follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.044
    
    [GRAPHIC] [TIFF OMITTED] T2522.045
    
    [GRAPHIC] [TIFF OMITTED] T2522.046
    
    [GRAPHIC] [TIFF OMITTED] T2522.047
    
    [GRAPHIC] [TIFF OMITTED] T2522.048
    
    Mr. Horn. As you know, the subcommittee has always moved 
very rapidly on most of these things.
    I want to go back to some fundamentals here so we get it 
out on the table. One of the ways of getting at this is file by 
file and name. Another is bulk. I would just like to go down 
the line and say--and get from each of you, since you are all 
experts, what is the problem there and what can we do to 
resolve it?
    Mr. Kurtz. My agency colleagues, I am sure, can amplify, 
Mr. Chairman, but from my perspective, I think there are three 
problems.
    First, sources and methods: I think that is a particular 
issue for both the CIA records, for the Army's records, and I 
think also, to some extent, for the FBI records; and all of 
them also share--perhaps the CIA to the greatest extent--
foreign government issues. It is very significant that Director 
Tenet and Ken Levit have worked so assiduously on the foreign 
government issue, because much of what was released yesterday, 
that had a rather startling impact, would not be possible 
without their cooperation.
    But I am concerned over the time limits. Even if we get an 
additional year, we still have all of the Japanese issues to 
deal with, which in some ways are more complicated from a 
records point of view than the German records issue; and a 
file-by-file through everything is very--very time-consuming. I 
would hope that we would be able to work out with the agencies 
some sort of triage.
    Not everything needs to go through a page-by-page or a 
line-by-line. I think we might agree certain categories of 
information do, and if we can refine this and get a more 
targeted strategy so we can get through more rapidly those 
records that permit that, we would have time to deal with the 
issues that are most knotty.
    Mr. Horn. We obviously have a lot of Holocaust scholars in 
this country, and we can turn them loose once you have a series 
of files there. Is that the plus of the bulk approach, get them 
into the situation where scholars can say, I would like to see 
X number of files, even if they don't have a name?
    Mr. Kurtz. Well, my experience with bulk declassification 
goes back to the President's Executive order in 1994 on World 
War II records, and the National Archives very much supports an 
approach, whether bulk or survey--whatever term might be used--
to avoid to the greatest extent possible line-by-line, and 
there are many advantages. One, it gets into the hands of those 
who want and need them in a more expeditious fashion; it is 
more economical from the point of view of resources; and it 
enables the government to focus on those areas where there 
might be some sensitivity.
    Mr. Horn. Now, have you in your role with this Interagency 
Working Group been able to obtain various documents 
internationally from, say, Russia and Japan; or is that 
something that you are considering in the future?
    Mr. Kurtz. Well, let me address Japan.
    I had a meeting with the archivist from Japan several 
months ago, and we discussed trying to get documentation or a 
report from them to detail where the records are now that were 
captured by the United States, brought to the United States and 
then returned to Japan in 1958. There are serious questions 
about their availability and access.
    Mr. Horn. Before we returned them, did anybody have the 
sense to make microfilm out of those records?
    Mr. Kurtz. The government did not follow the same policy 
with the Japanese documents as with the German Government 
before they were returned.
    Mr. Horn. What was the difference?
    Mr. Kurtz. It was 1958, and I am not sure. I was alive, 
yes, definitely. But anyway, we are going back and forth with 
the archivist of Japan to get a useful report, where these 
records are and are they available; and so far, not a great 
deal of success.
    Mr. Horn. How about the Russian records?
    Mr. Kurtz. We have not started dealing with the Russians.
    Mr. Horn. Isn't that a likely possibility to see what they 
knew at what point in time?
    Mr. Kurtz. Yes.
    Mr. Horn. Because I know that we have a few Russian 
generals who came from their equivalent of OSS.
    Mr. Kurtz. That is a good point.
    Mr. Horn. We will just go down the line.
    Ms. Holtzman.
    Ms. Holtzman. Thank you very much, Mr. Chairman.
    I think it is not names versus--well, it may be. It is bulk 
versus line-by-line, and if we are going line-by-line, then the 
question is, are there strategies that can help us in terms of 
the names issue. Even if we do bulk declassification, what are 
we going to declassify?
    Obviously, agencies like the CIA and the Army have very 
deep concerns about protecting what needs to be protected. But 
I would say, Mr. Chairman, it may well be that we can take the 
position with regard to documents of World War II that we can 
just bulk declassify those, unless, of course, there are any 
documents that we know of that have formulas for atomic weapons 
or poison gas or something like that.
    But aside from that, it is hard to understand why--aside 
from the principle of preserving the secrecy of foreign 
information or the principle of preserving sources. We are 
talking about matters that are over 53 years old, 54, 55 years 
old; yesterday some of the documents were 57 years old. So I 
would say, there are some approaches like that.
    But we can take some timeline, the end of World War II--
obviously, the more recent, the more reason there may be not to 
disclose. Privacy concerns, as well, may come up. I would say 
that is one area that this committee could give us guidance.
    My own personal view is, if we could do bulk 
declassification within some kind of timeframe, that would save 
time and money.
    Second, if we don't know the names, how are we going to get 
the information? I would hope that the agencies would agree, 
and we could work out, with the help of the Archives and their 
excellent staff, a method of agreeing that all documents within 
certain programs would be relevant; whether they then would be 
declassifiable would be another subject.
    But I think the other thing that it just raises with regard 
to the issue of Japan, I don't even know, Mr. Chairman, if we 
returned those documents to the Japanese, that we will be given 
access to those documents, but it would be quite extraordinary 
for us to have returned the documents and not be permitted to 
see them.
    Mr. Horn. Do we know who was in charge? Was it the State 
Department or the Army or what? We ought to write the 
appropriate people and ask them to give us whatever 
historically happened there. We do know that Secretary Dulles 
was very anxious to get a peace treaty with Japan, and we know 
a lot of things, but the question is, who had the control of 
them?
    Mr. Kurtz. I would recommend, Mr. Chairman, checking with 
the Department of State, because they handled all of the 
negotiations on treaties, records, claims. So if there was any 
requirement written into any agreements about providing access, 
it should be known to the Department of State.
    Mr. Ben-Veniste. I think this would be appropriate for us 
to make inquiries and report back to this subcommittee what we 
have found about the historical record relating to the return 
of those documents, Mr. Chairman.
    Mr. Horn. Mr. Baer.
    Mr. Baer. Thank you for asking about this subject. Briefly, 
the legislation contemplates this vital issue and is a major 
question, bulk versus line-by-line or bulk versus a search.
    Mr. Chairman, in the Congressional Record of 1998, August 
6, you said, ``Much of the government information on alleged 
Nazi war criminals has remained secret even though researchers 
have filed Freedom of Information Act requests to secure copies 
of the records. Federal agencies have routinely denied these 
requests, citing exemptions for national defense, foreign 
relations and intelligence. More than half a century after the 
Second World War, it is time,'' you said, ``to end the sweeping 
equity exemptions that have shielded Nazi war criminals from 
full public disclosure.''
    Now, the legislation imports two points of view, reflecting 
the committee and Congress' desire to change the method of 
releasing this. No. 1, unlike Freedom of Information Act 
requests where people have to be making requests, the burden 
here is placed upon the government agency to make revelations. 
And the revelations do require exemptions for sources and 
methods, but the legislation says they can't be blanket, they 
can't be general, there has to be a specification of injury to 
the United States made by the agency head. So the legislation 
changes the Freedom of Information Act from initiated by a 
person seeking information to initiated by an agency.
    The second element of the legislation which speaks to bulk 
declassification is the necessity of speed, because time is 
running out. In that connection, Representative Maloney, in the 
debate, said, ``It is our intention that affected agencies 
should declassify all documents recommended by the Interagency 
Working Group as quickly as possible. It is our expectation 
that all such documents become public as soon as possible, 
preferably within the first year and most certainly by the end 
of the 3-year period during which the IWG is in existence.'' So 
that the scheme is agency action rather than request, speed 
rather than delay.
    Fortunately, I have looked into this, to try to fulfill my 
obligations as a member by asking for some advice, and I went 
to a place I know quite well called the Yale Law School, and I 
asked them to look into this; and they provided me with a 
letter of opinion, which I furnished to the staff and which I 
am sure you have.
    Mr. Horn. And I would like to put it in the record at this 
point if there is no objection. It is by Robert A. Burt, a 
professor of law at the Yale Law School; and this is 
correspondence to Mr. Thomas H. Baer as of February 8, 2000.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.049
    
    [GRAPHIC] [TIFF OMITTED] T2522.050
    
    [GRAPHIC] [TIFF OMITTED] T2522.051
    
    [GRAPHIC] [TIFF OMITTED] T2522.052
    
    [GRAPHIC] [TIFF OMITTED] T2522.053
    
    [GRAPHIC] [TIFF OMITTED] T2522.054
    
    Mr. Baer. That's correct. Just to complete this, the issue 
here is a complicated issue with certain collections and 
certain protections of national security. The release of 
sources and methods of the 1940's and 1950's, it is argued by 
the agencies, with those agencies imperils current intelligence 
because individuals who are spies or otherwise covert 
operatives for the United States in 2000 do not want to 
continue their activity if they are in peril of ever having 
their names released or their activities disclosed by the fact 
of release later on; and I recognize that.
    But Ms. Holtzman, I think, and Dr. Kurtz, in his typical 
effective way, have put their fingers on it. There has to be 
some method of wedding this protection with bulk 
declassification; and guidance is important. For example, if 
the committee were to say, look, find a method of inclining 
your way toward bulk while preserving this; that is what we 
want you to do--I think that kind of guidance would be 
important.
    Finally, I am not a historian, but it is the position of 
the historian community that bulk declassification is the most 
effective method because the integrity of the documents, their 
placement, one to the other, in and of itself gives great help 
to the historian in making the record.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    Mr. Ben-Veniste.
    Mr. Ben-Veniste. Thank you, Mr. Chairman.
    I think John Collingwood of the FBI put it very gently in 
terms of the debate which we have had internally, within the 
Interagency Working Group, about the speed and the methodology 
of the declassification effort. To a large extent, with respect 
to the European Theater records, I think we may be at a point 
where this is mooted out. It is our understanding that the 
Army, who has the largest repository of relevant records, will 
release all of its relevant records in October.
    Without getting into some of the internal discussions we 
had, we have seen various representatives come and go before 
our Interagency Working Group until we had received assurances 
that we are now basing our report to you on. But should those 
assurances not hold to be true, you can be guaranteed of our 
return quickly before this subcommittee to explore whether 
something went wrong and what the nature of the representations 
made to us were and on what basis they were made.
    But at this point Secretary Caldera has assured us that the 
records not just at Fort Meade, but if I am not incorrect, all 
of the records within the possession of the U.S. Army, which of 
course had the lead in terms of the wartime and postwar 
intelligence-gathering effort and dealing with the former Nazis 
and the de-Nazification program and whatever exceptions were 
made to that--those records, which we feel are very important 
in illuminating the historical record, are due to be released 
in October.
    With respect to Japan, which we have not even begun to deal 
with, the question of bulk declassification becomes far more 
relevant from a practical standpoint, because we are nowhere 
with respect to those materials; and I think we should give 
very important consideration to the issue of bulk 
declassification there, again, with the caveat that things 
involving our nuclear secrets, things involving the potential 
for information of some potential danger to our society to fall 
into the wrong hands through this release of information should 
continue to be something of concern.
    But by the same token, we've learned that this material has 
been available through other sources for quite some time. So 
although theoretically we are concerned about its dissemination 
from a practical standpoint I think there needs to be some rule 
of reason applied.
    Mr. Horn. Mr. Levit.
    Mr. Levit. Thank you. I don't think it will come as a big 
shock to the committee that, as a CIA representative, we have a 
hard time with the idea of bulk declassification. A couple of 
problems for starters: The National Security Act, in 1947, 
charges the Director to protect sources and methods. If 
material is shipped out without being reviewed, that is a hard 
mandate to live up to.
    The second issue is the Kyl amendment that poses questions 
for review on a page-by-page theory of materials for 
declassification, for review of restricted data information. So 
it is a question that I think we need to address whether or not 
bulk declassification is even possible in light of that 
legislation.
    That said, I don't think this issue is quite as binary as 
it is sometimes presented. There are classes of documents--
let's go back to the World War II era records and separate out 
from those those that are not foreign government information. I 
can tell you that at the CIA we have a pretty efficient, fast, 
systematic method of declassifying records; we call it the 
``declassification factory.'' We have been at this under the 
Executive order for some time, and they are declassifying 
millions of pages a year.
    Most of the 400,000 pages that came out yesterday were 
mainly a product of the 25-year program, although they were 
rereviewed under the guidelines for this statute to make sure 
that we weren't redacting more than we should.
    But I think that there are classes of documents that can 
get a level of review that is different than other classes. 
When we go to our operational files, for instance, we will have 
to give a line-by-line review of those records. There is no 
other way in order to protect sources and methods because they 
are chock full. But on some of these older records, things that 
are not foreign government information, we can move this 
quickly. It is not bulk, but it is fast.
    One footnote: We have released in the last 20-25 years 
World War II era--or OSS information, more specifically over 14 
million pages--so this 400,000 pages that was released 
yesterday is just another chapter of that release; and I think 
we are approaching the very near end of all of those records.
    Thank you.
    Mr. Horn. Mr. Collingwood.
    Mr. Collingwood. It is a larger process issue, and for the 
FBI, it really does not come down necessarily to a 
classification issue. For example, in all of the records that 
the FBI, to date, has accessioned to Archives, 367 pages have 
been withheld because they maintain classification. Of those 
367, none remain classified because of U.S. or FBI information, 
all remain classified because of foreign government interests 
and because they were collected from foreign governments under 
long-standing agreements with foreign government organizations. 
We would expect all 367 pages to be declassified in whole or in 
part when we get permission from those governments.
    But the protection of foreign government information to law 
enforcement is critical, particularly now; it has become more 
critical than at any time in our history as we deal with 
international organized crime, terrorism, cybercrimes and 
others. The interaction between foreign law enforcement 
agencies and domestic law enforcement agencies has become so 
commonplace, and these agreements have become so important, 
that they are critical.
    But bulk declassification does not address that, and there 
is really no way to get around that because of the existing 
agreements.
    I agree with what Ken is saying. Like the CIA, we have a 
process for declassifying this stuff, and we would describe it 
as an incredibly fast pace, but because of the way that the 
documents are created and maintained, it is nearly impossible 
just to give wholesale, bulk declassification of the documents.
    Mr. Horn. Colonel Thompson.
    Colonel Thompson. Thank you, Mr. Chairman.
    The Department of Defense is on record as opposed to bulk 
declassification, sir. I will add that we will meet our 
requirements without the need for bulk declassification.
    As for our process, we faced three challenges at the outset 
of this task, first, the sheer volume of material. I mentioned 
earlier that we have 1.9 million files; 1.2 million of those 
are contained on microfilm, which complicates the task. So the 
challenge in the volume was to figure out how to reduce the 
volume that would enable us to meet our objectives.
    The second challenge is the age of the film. It is very 
brittle. It breaks, and it is not as simple as having one file 
located on one roll. Sometimes they are located on multiple 
rolls, and you have to find them.
    The third challenge was resourcing. We had to triple the 
work force in our repository to undertake this task. We also 
had to--in addition to building and training the team, we had 
to develop a process that enabled us to get our hands around 
the magnitude of this task and pare down the volume of 
material.
    We put together a state-of-the-art, cutting-edge process. 
We think that it is the most advanced of its kind in the 
country using sophisticated search engines. We are currently 
processing 60,000 to 70,000 files or about 1 million images per 
week on the microfilm. To date, of the 11,500 reels of 
microfilm, we have already digitized over 8,000 or about 
960,000 files. Out of those, our search engine has identified 
7,539 files as possibly relevant. Further inspection of those 
files has given us an indication that at least 4,064 are 
definitely relevant; that is, approximately 40,000 pages.
    Thank you.
    Mr. Horn. Thank you. I now yield to the gentleman from 
Texas, Mr. Turner, for questioning.
    Mr. Turner. Thank you, Mr. Chairman.
    As I listen to you, it certainly causes me to want to thank 
each of you who have served on this Interagency Working Group, 
particularly the public members who have devoted so much time 
and energy and effort to this endeavor. I cannot help but be 
impressed once again, as I listen to you, regarding the 
importance of peeling back the layers of secrecy, one document 
at a time, of the darkest chapter in the history of modern man. 
And I can't help but feel a recommitment to being sure that 
this work is continued, irrespective of how tedious, 
irrespective of how legally challenging it may be to determine 
the proper way to accomplish the task.
    And I particularly want to thank Mrs. Maloney, whose 6-year 
crusade led us to the point of the creation of this effort, and 
who brings a great deal of insight in terms of the progress 
that has been made.
    Mr. Chairman, I would like to yield all of the time that I 
have for questioning to Mrs. Maloney and let her pursue that 
inquiry.
    Mr. Horn. Let us pursue it for about 10 minutes.
    Mrs. Maloney. I thank Mr. Turner for yielding to me and, 
again, the chairman.
    I would like to get back to the time question. One of you 
mentioned that only a third of the job is done. Will we be able 
to complete it by the timeframe that we have before us? I 
include Japanese records. That was our intent, and it was 
mentioned in the legislation.
    Mr. Kurtz. I would say, picking up what Mr. Ben-Veniste was 
talking about, the extra challenges, I don't think by January 
2002 we will be able to complete the totality of the European 
and Pacific Theaters. So when Congressman Lantos was discussing 
the need for an additional year, I think that would be a year 
well used.
    Mrs. Maloney. Do you think that you could complete it in an 
additional year?
    Mr. Kurtz. Yes, I do.
    Mrs. Maloney. Would other members of the panel like to 
comment on the timeframe and what is needed with regard to 
Japanese war criminals and the funding and everything else to 
complete the job?
    Ms. Holtzman. Congresswoman Maloney, I just want to say 
that I have some questions as to whether we will complete the 
European Theater within the timeframe. I know that we have made 
terrific progress, and I really take my hat off to every one of 
the agencies involved. You can see, just from the statements of 
Colonel Thompson, the kind of effort that the Army is making; 
and you can see from the statements of both representatives--
very able representatives of the CIA and the FBI what kind of 
efforts they are making, but you have to note, for example, 
with regard to the CIA the release yesterday was of OSS 
materials.
    This is pre the end of World War II. We have many years 
after the end of World War II that have to be looked at. Can 
that process be completed? I don't mean that with any 
criticism.
    So I would say that I think it is good to keep the pressure 
on. So if we give the IWG an extra year to focus on the 
Japanese materials--but that is one of the reasons that I 
raised the question about the timeframe. Perhaps the agencies 
could give you a sense of whether they will complete--in their 
own mind, whether they can complete the assigned task, putting 
Japan aside, within the time allotted.
    Mr. Baer. Representative Maloney, the agencies are putting 
on a Herculean effort; there is no question. Their cooperation 
has been outstanding for the most part. But I would have to 
agree with Ms. Holtzman, perhaps for a slightly different 
reason.
    With the current resources of the IWG, which is a loan from 
this one and a loan from that one, it is almost impossible to 
complete the task, particularly the public information 
function, the outreach to historians, the educational function, 
within that timeframe. Although they will come up with as much 
as they can, Dr. Kurtz and the members of his staff are not 
really sufficient, and I think they would agree with this, to 
complete it without separate resources.
    Mr. Ben-Veniste. Let me focus on another issue.
    We have received status reports from the relevant agencies, 
which all indicate completion of their task within the European 
Theater within the statutory period. However, from my point of 
view, which is something that we have recurrently discussed, 
the process of identifying the relevant records is to some 
extent an interactive process.
    There will be materials which will be reviewed and which 
will then stimulate the request for other records in other 
files. This, in turn, implicates the sources for reviewing 
these materials by experts in the period, who will then be able 
to identify other things which may have been overlooked.
    So the process in its first iteration may well be completed 
within time, and we are entirely hopeful and very thankful for 
the dedication that you have heard expressed here today from 
the relevant agencies; but in practical terms, I don't think 
there is anyone here who can give the assurance that the task, 
as I have outlined it, could be completed within that time 
period on the basis of the resources presently available.
    And that excepts the Japanese question from our analysis. 
We have not even begun to get our arms around the Japanese 
document issue.
    We have not seen Congressman Lantos' legislation. We are 
very interested in seeing it, but we can certainly give no 
assurance, Congresswoman Maloney, at this point--at least I 
cannot--about the conclusion of the effort.
    Mrs. Maloney. How much time do you think would be needed to 
review the Japanese documents also?
    Mr. Ben-Veniste. Certainly the additional year is very well 
advised. But until we really have the opportunity to get our 
arms around the challenge, which is the way we began 
functioning with respect to the Nazi documents--it took us a 
substantial amount of time to identify who had the records, 
where they were and what the processes would be for reviewing 
them.
    Obviously we have learned a lot, and those lessons will be 
applied to the issue of the Japanese documents. And by the same 
token, suggestions--the potential for bulk declassification 
would be most useful in that regard to the extent we get our 
arms around the issue quickly, and it would appear more 
feasible.
    But at this point, perhaps Dr. Kurtz could be more 
informative with respect to the Japanese issue.
    Mr. Kurtz. I would like to discuss how we are going to 
begin our efforts with the Japanese documents. We meet monthly. 
Our July meeting is focused on various search strategies for 
the Japanese records. We are not going to have available to us 
the wonderful tool that the Office of Special Investigations 
was able to put together; but there are a variety of search 
strategies, and we are going to be presenting them to the IWG 
to get their input and feedback to see if we can craft an 
effective strategy.
    I would also like to comment on former Congresswoman 
Holtzman's idea or suggestion about how to ensure kind of a 
more complete search, so that there is a higher level of 
reliability possible. I agree with her. I think we can work out 
using various program and operational names, putting out a 
requirement that all records that fall within those operations 
and programs be deemed relevant. I think we can really raise 
the reliability and effort level, and I am confident that this 
is something that we can work out with all of the members of 
the IWG.
    I think the other issue I would just want to reiterate--and 
Congresswoman Maloney is well aware of it as the author of the 
legislation--is that we feel fully confident, under the terms 
of the existing legislation, to move and to deal with the 
Japanese records; and that a second or supplemental IWG is not 
something that would be required in order to do our work.
    Mrs. Maloney. OK. Anyone else?
    Mr. Collingwood. Our projections of completing what is on 
the table right now are based primarily on an identified 
universe of documents. We know what the parameters are that we 
have to deal with, and we know the resources that are being 
applied to it.
    Mr. Ben-Veniste is exactly correct: In the process of 
producing documents, we have identified several thousand 
additional names that we have searched. We have reviewed 27,000 
additional pages and identified 6,000 additional relevant 
pages. So given that the task at hand can grow to some unknown 
degree during this process, but not speaking for the other 
agencies, but confident that they will give you the same 
response, we are of course willing to produce whatever 
additional resources we need to complete the task at hand 
within the time we are required to do so.
    Mrs. Maloney. Do you think that we can complete the 
Japanese section too within the time designated in the bill?
    Mr. Collingwood. No. The projections that we have now are 
based on the European Theater.
    Mrs. Maloney. The Japanese, do you have any sense for that?
    Mr. Collingwood. We have not yet surveyed our own records 
to know what the possible parameters would be.
    Mrs. Maloney. Earlier you mentioned, and Mr. Levit 
mentioned, some documents were not released because of foreign 
government objections. Can you mention which foreign government 
and the impact of the foreign government objection?
    Mr. Levit. I am happy to handle that question, 
Congresswoman. Thus far, we have only received the fullest 
cooperation from all of the foreign governments that we have 
approached. We have not crossed the barrier where a foreign 
government has asked us to withhold a document that we believed 
was relevant. They have sought to review documents. They have 
sought to make sure that their other government agencies were 
aware of the record at issue, but we have not received a 
denial.
    So I am thankful that I am able to report to you that at 
this point we are getting the fullest level of cooperation. I 
will use this point to dovetail for a moment into the time 
question.
    Our plan, our intent, our projection, is to conclude within 
the 3-year window, and again I am referring to the European 
Theater. The wild card, in my view, is the universe of 
documents which is foreign government information. When you 
consult with foreign governments, when they take possession of 
copies of documents and ask to consult with their government 
agencies which have equities in a certain foreign government 
document, you are in their hands to allow some time to pass. So 
thus far, the review by foreign governments has been 
extraordinarily expeditious, but I think we have to be 
concerned about those records that may take more time.
    Mrs. Maloney. Yet you testified earlier that some documents 
were being kept classified because of foreign government 
concerns, I thought. Didn't you say that?
    Mr. Collingwood. I mentioned we have 367 documents, but we 
have every expectation that those will be declassified and 
released consistent with what Ken is saying. It is just a 
matter of going through the process.
    So from our perspective, while it is an unknown, it does 
not appear at this point to be a substantial unknown for us.
    Mrs. Maloney. Thank you. My time is up. Back to the 
chairman.
    Mr. Horn. I thank the gentlewoman from New York, and I now 
yield to the gentlewoman from Illinois.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Dr. Kurtz, I believe you mentioned at some point about the 
condition of some of the documents that you have that are on 
microfilm. And then I think you mentioned about some of the 
Japanese documents that have been returned without any record 
of them or without copying them.
    Why were they returned?
    Mr. Kurtz. Well, let me deal with the preservation 
question, and then I will go into the Japanese records issue.
    These World War II documents--and they are paper and 
microfilm--they were created on very poor paper, and so many of 
the files being transferred to us from other agencies are 
crumbling. You pick them up and they are falling apart. Our 
concern as an IWG, our concern as the National Archives, we are 
not going to fulfill the mandate to make records available if 
they are falling apart. So we have begun at the National 
Archives to put together a preservation strategy to identify 
the records that are most at risk, and if we are able to get 
the resources required, we are going to start an extensive 
preservation effort.
    On the Japanese records, I received some information from 
my staff regarding your original questioning, Mr. Chairman. 
Apparently when the State Department negotiated with Japan the 
return of the records, there was no provision for access. That 
was not included in the agreement.
    I would have to speculate, as far as the situation was 
different with Japanese records from German records, I think 
there was more extensive interest in the captured German 
records. There was much more vigorous war crimes and trial 
efforts in Germany in comparison to the Far East, and the 
American Historical Association in the mid-50's was very 
interested in these captured German records and put a great 
deal of pressure to ensure that there would be copies of these 
records here in the United States. So the government developed 
a film and restitute program.
    There was not similar interest with Japanese records at 
that time.
    Mrs. Biggert. Maybe I should ask the question of Colonel 
Thompson and Mr. Collingwood and Mr. Levit, if the records 
pertaining to Japan were returned with any conditions. In other 
words, does the United States have any right of review of those 
records that were returned?
    Mrs. Biggert. Mr. Ben-Veniste.
    Mr. Ben-Veniste. Perhaps I can at least raise the question 
that we don't have a conclusive answer to, and that was the 
fact that apparently the historical record reveals that within 
our government there was discussion and, indeed, there seems to 
have been agreement that a condition should have been placed, 
or would be placed, on the return of the Japanese documents 
providing for access by appropriate American Government 
officials to those materials, on request.
    That does not appear to have been reflected in the treaty 
agreement itself, I am advised; but as I indicated to Chairman 
Horn earlier, I think it is appropriate for us to undertake the 
research with respect to that question--it is a very important, 
perhaps critical, question with respect to these documents--and 
report back to this subcommittee what we have found.
    Mr. Kurtz. The IWG----
    Mrs. Biggert. Mr. Levit or Mr. Collingwood or Colonel 
Thompson, do you have any information as to whether there were 
any conditions placed on the return of the documents?
    Mr. Levit. I am simply not in a position to comment upon 
it. I don't know.
    Mr. Collingwood. The same would hold true for me. Our task, 
when we turn to that, will be producing those documents which 
remain in our possession, which we will be glad to do.
    Colonel Thompson. I have no knowledge, ma'am.
    Mrs. Biggert. Mr. Baer.
    Mr. Baer. One of the things about the three of us is, we 
are not in the government, so we are allowed to take a 
nonbureaucratic approach. Assuming for purposes of argument 
that they were imprudently returned without any right of 
review, the ordinary person's suggestion would be that someone 
should talk to them and ask them to please make them available. 
I suppose that it would be very useful for the Congress, for 
this committee, to advise us in writing that we should take 
this up with the Department of State to have a bilateral 
discussion for purposes of achieving what it is your question 
suggests.
    Mrs. Biggert. Thank you.
    Dr. Kurtz, have you had any discussions with the Japanese 
Government regarding the return or review of these documents?
    Mr. Kurtz. The conversation that I have had was with the 
archivist of Japan, and our focus in the discussion was to get 
a report from him to describe where these records went, what 
repository in Japan has them, and what are the conditions for 
access.
    I agree very much with Mr. Ben-Veniste's comment about 
doing some research on this issue and getting back to the 
committee. We certainly--the IWG staff will do that first of 
all for the IWG, and we certainly will respond to the 
subcommittee.
    Mr. Ben-Veniste. There is an obvious practical question 
that is raised by the review of a large repository of Japanese 
records, and that is that these records will be in Japanese. It 
also calls into question the issue of resources to be able to 
review such materials. So, seriatim, things lead back to the 
same issue of resources available to us to do the kind of 
effective job in implementing this important legislation that I 
know that the Congress and the administration expect.
    Mrs. Biggert. How many of the documents that--well, with 
the documents that are in German with the Nazi documents--I 
would assume that most all of them are, unless they have been 
translated.
    Mr. Ben-Veniste. A large number decoded were translated, 
but we have already released a cache of captured German 
documents which were in the original language; and perhaps Dr. 
Kurtz can expand on that.
    Mr. Kurtz. The bulk of the documentation released to date 
is in English. As Mr. Ben-Veniste noted, the decodes that were 
released yesterday had already been translated, and it was a 
relatively small cache of German records that are now available 
but not translated. The bulk of the documents released so far 
are in English.
    Ms. Holtzman. Most will be in English because it deals with 
contact between American agencies and various foreign--and 
Americans on the issue of Nazi war criminals.
    With regard to the issue of Japan, I think once we get a 
better handle on exactly what happened here, whether it was the 
intention of our government and the Japanese Government to 
allow, for example, access, and they just forgot to write it 
in; or whether it was the intention not to. I think you need to 
know that before you can take appropriate action, and we need 
to know that before we can take appropriate action. Once the 
facts are known, this committee can act.
    I would hope that the Japanese Government would understand 
that this material should be open in the interest of justice 
and truth. After all, we gave the documents back, and they 
should be open to American scholars and Japanese scholars. I 
think there is a great deal of interest in Japan about this 
subject, as well, as there will be here undoubtedly, too.
    Mrs. Biggert. Are there other foreign countries or allies 
who may still have some of the documentation that they might 
have acquired that we would be seeking also under this 
legislation?
    Mr. Kurtz. We have discussed at the IWG trying to utilize 
what resources we have, and I think that is where Mr. Ben-
Veniste's point--and also raised by Congresswoman Holtzman and 
Mr. Baer about resources. With additional resources, we want to 
contact the British and other governments to ascertain what 
they are releasing, so we can create a unified pool of 
knowledge, what they and we are all making available, and see 
where there are gaps in information and documentation, where 
there is overlap and where there is complement.
    Mr. Baer. Mrs. Biggert, you should also know that we are 
planning a major international conference with, I believe--Dr. 
Kurtz, there are going to be 30 countries that have these 
historical commissions?
    Mr. Kurtz. Right.
    Mr. Baer. Thirty countries that have historical commissions 
that are somewhat similar to what we are doing. And so we would 
intend that there be an international movement.
    Also recently, in Stockholm, you may recall that there was 
a meeting in which the foreign minister of Sweden spoke out in 
favor of the sorts of things that this Congress has done, 
namely revelation finally of these secrets worldwide. So the 
point is extremely well taken.
    Mrs. Biggert. Could the IWG advise this committee when it 
determines the status of the Japanese records and whether we 
should pursue a formal request, or not, if that is not 
possible?
    Mr. Kurtz. Certainly. We will make a report when the facts 
are known and analyzed.
    Mrs. Biggert. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Horn. Before I turn to Major Owens, I want to clear the 
record here on the Japanese situation.
    Mr. Bilbray has put in, with Mr. Lipinski, the following 
bill, H.R. 3561, on February 1, 2000; and the essence of it 
gets down to the records of the Japanese Imperial Army in a 
manner that does not impair any investigation or prosecution 
conducted by the Department of Justice for certain intelligence 
matters and for other purposes.
    Do you think that that bill is too limited in terms of the 
Japanese Imperial Army, or how should Mr. Lantos draft it? What 
do we know about the number of records that will not come under 
the Japanese Imperial Army?
    Mr. Kurtz. Mr. Chairman, I would think that using the 
framework that Congresswoman Maloney and others who crafted the 
original Nazi War Crimes Disclosure Act would be perhaps more 
useful. In other words, any bill that is just restricted to the 
Japanese Imperial Army, does not get at foreign ministry 
records, navy records or intelligence records.
    So something crafted, which was very broad in the Nazi War 
Crimes Disclosure Act, with the appropriate date span that 
would have to be worked out for the Japanese records, I think 
that--I would be concerned if anything is just restricted to 
the Imperial Army.
    Mr. Horn. I would be interested in another aspect of this. 
Ever since I came here in 1992, along with Mrs. Maloney, I have 
been worried about the so-called ``comfort woman'' situation. 
Do you consider that under your jurisdiction in terms of the 
exploitation of these women by the Japanese Imperial Army?
    Mr. Kurtz. I would, yes.
    Mr. Horn. My reaction is, we don't ever seem to get a 
reaction from the Japanese Government. They just deny it--
sorry, denied.
    I suspect that we will have problems with this, and what we 
need is a Freedom of Information welfare group in Japan to say, 
we would like to see the government's various documents. Maybe 
that is the way that you do it.
    Now, I am delighted to yield to my colleague from New York, 
Major Owens.
    Mr. Owens. Thank you, Mr. Chairman. I would like to welcome 
Liz Holtzman, a former Member of Congress.
    I would like not to be redundant. However, I had ``comfort 
woman'' in my notes here also. Let me just try to summarize my 
notes and ask a broad question here.
    Are we dealing with a situation which has been caused by 
official apathy, that nobody really cares about these records; 
bureaucratic sluggishness, somebody does care, but we will get 
around to it sooner or later? Are we dealing with a mystique 
which surrounds this whole classification phenomenon?
    I have gone to many classified hearings and been upset that 
information we get, 90 percent is already in the New York 
Times. There is a lot of tendency to classify and hold on to 
things that don't need to be classified.
    Are we dealing with a situation where something of great 
value is being--a number of things of great value are being 
held back? Is there some Rosetta Stone among all of these 
documents that will lead to the discovery of some other 
startling and unusual facts? It was a Swiss Guard, I believe, 
who blew the whistle on some burning of records from Swiss 
banks several years ago; and he set in motion a whole series of 
events which led to billions of dollars being put up by the 
Swiss banks and Swiss Government.
    And also a fallout from that was the situation in Germany 
where billions of dollars are being set forth for the forced 
labor workers who were forced to work in German industry. So 
there is a lot at stake in some of these records.
    Is there some kind of conspiracy behind the scenes that 
keeps them from being expedited with a great sense of urgency? 
It has been over 50 years, and we hear about current 
intelligence being imperiled by records that are 50 years old. 
Statutes of limitations are involved, and some things you might 
discover there is no way to prosecute certain kinds of crimes.
    The Japanese have sort of acknowledged the ``comfort 
women'' situation, but refused to apologize. That is a minor 
matter compared to deliberately fostering epidemics and 
infecting populations.
    These are events which are pivotal in the 20th century and 
in the history of the world in terms of the kinds of things 
that have happened as a result of it. So I would just like to 
have a response.
    And let me start with you, Ms. Holtzman, in terms of what 
is at stake here.
    Ms. Holtzman. It makes a difference on a lot of levels. 
There are some people today who deny the Holocaust. Just in the 
materials that were opened yesterday, it turns out that British 
intelligence was overhearing and listening in on conversations 
among German prisoners of war; and they had captured generals, 
and the generals were discussing a specific atrocity that took 
place in one of the Baltic countries in extreme detail.
    Well, someone could say, what does he know and maybe he 
made it up. It turns out that there is one video that was taken 
by the Germans of these kinds of atrocities where Jews were 
taken, they had to dig the ditches and then were shot to death. 
Hundreds of Jews, one on top of each other. The one single 
video that the German army made is of exactly this description 
of the incident that was given by the German general. That 
provides stark and important evidence, a small piece of 
evidence, that the atrocities took place.
    What else was at stake? These documents also raise 
questions, very important questions, that we as a Nation, 
Britain as a nation, have to look at. I don't know if the 
Japanese want to confront these issues yet, but the issues--
what was disclosed yesterday, did we do enough during World War 
II to prevent the atrocities, or were the atrocities committed 
against Jews something that is not even a footnote--that is 
important to know about ourselves. Maybe this will never happen 
again.
    The other question that was raised pursuant to just 
yesterday's revelation, a top aide to Hitler who was sent 
directly to Italy to oversee the annihilation of Italy was 
given a free pass for 15 years at the end of World War II. He 
should have been tried in Nuremberg. Why wasn't he? Was he 
given a free pass because he may have helped in the surrender 
of the German armies in northern Italy? That is raised by these 
materials.
    Other questions raise other questions about the U.S. 
conduct and the conduct of our allies, and Mr. Ben-Veniste 
mentioned it, it is one of the great tests of a democracy, the 
willingness to look in a mirror and learn what happened and 
learn from our mistakes. Of course, there are other practical 
consequences here, too, sure. Will some of this material be 
available for survivors seeking assets? That's possible. There 
may be some information with respect to the collaboration of 
German industries; that may be here, too.
    Who knows what we will find in the Japanese documents if we 
ever get access to them, the atrocities that nobody knows of 
yet that have not hit the front pages--``comfort women,'' 
countries have denied that they have engaged in certain conduct 
and they can be proven.
    For example, one of the claims that the Germans have made 
is that their army wasn't involved in atrocities, it was only 
the SS, it was only that evil group of people. Well, these 
documents prove differently. There are some people who argue 
that the German people were totally unified in their support of 
Hitler and their hatred of the Jews and yet if you read these 
documents, there was tremendous disgust among some of the 
generals and their discussions of what had been done and 
disdain for Hitler and condemnation of him.
    These are things that we can all learn from, and I think 
that the work of this--and who can say now all of the lessons 
that can be drawn from these materials? But these secrets must 
be made public, and we can learn a lot about our country and I 
hope prevent what happened in the past, at least that, from 
what is undertaken here.
    Mr. Baer. I just want to respond to one part of your 
question which is the issue of delaying or a culture of secrecy 
continuing or some kind of foot-dragging that your question 
suggested that you wanted to know about.
    That culture has dramatically changed in the agencies 
before you today. The three of us, the three public members, 
along with Mr. Kurtz and the National Security Council, have 
met with Director Freeh personally and with Director Tenet 
personally; and I think it is fair to say--and the others can 
speak for themselves--we were extraordinarily impressed by 
their intention to put it out from the top of these agencies, 
that these secrets were not going to be kept any longer, and 
that the legislation was going to be enforced and then, from 
the very top, the word was going to go forth.
    This stuff is going to be revealed, so there--this has 
changed. In fact, Director Tenet and Mr. Levit here today are 
to be commended for the work they did in getting out the 
material that we have got.
    As to what is at stake, it is simply a matter of the record 
of American history. We cannot make that conclusion, the 
historians will have to do so, but the fact is that the America 
of today, the America of today, Mr. Owens, is the America that 
the world admires principally because of its efforts to defeat 
the forces of evil during World War II. And secret from this 
reputation and revealed to some degree has been a somewhat 
checkered record with respect to what happened and what 
knowledge was available.
    Today's Washington Post says it quite very eloquently on 
the page 1 story by Michael Dobbs. So continuation of this 
effort is vital to liberty and democracy because it makes 
available to us, our children and grandchildren, what the real 
truth is and makes it known to people in government today that 
you can't turn to somebody and say, quote, no one will ever 
know.
    Mr. Owens. In terms of resources, if the private sector 
foundations were to offer enormous sums of money to help get 
the resources that you need and the bodies you need to do the 
declassification--and I am a former librarian, you need some 
former librarians--would that be acceptable and speed the 
process? If foundations were to offer----
    Mr. Baer. We tried it. When we met in January 1999, with 
Dr. Kurtz and all of us together, we didn't have any money, and 
we don't have any money today. The first thing that we tried to 
do was raise money, I know that I did, from a lot of people. I 
went to some of the places that you would think that I would 
go.
    Mr. Owens. No positive response?
    Mr. Baer. No.
    Mr. Owens. Would you have accepted it if you had gotten a 
positive response?
    Mr. Baer. Of course.
    Mr. Owens. The Army would accept it?
    Mr. Baer. We are talking about the Interagency Working 
Group, this level. The Army would have to speak for themselves. 
But we actually entered into an effort to try to raise money 
from foundations for the group that has been created by the 
legislation. But we were unable to do so; I was unable to do 
so.
    Mr. Ben-Veniste. I think this was a very personal and 
desultory effort to raise the funds, but we think the 
appropriate place to receive funds for this public group is 
from the Congress appropriating them. We have scrounged around, 
and have depended on the kindness of the National Archives and 
the Department of Justice for the limited funds we have 
received.
    Mr. Owens. We have a $200 billion surplus anticipated this 
year, and we will keep adding money over the next 10 years. It 
is a matter of how important is this to our decisionmakers.
    Mr. Ben-Veniste. We think that it is important not only to 
supplement the historical record, but also to demonstrate the 
strength of our democracy.
    As my two colleagues, Ms. Holtzman and Mr. Baer have very 
eloquently stated, we have the strength in this country to look 
at ourselves in the mirror and recognize that where we have 
made mistakes, we can shine the light on those as well and 
learn from them. This legislation is a very important 
manifestation of the strength of our democracy, and it shows 
the world that we are willing to look at these issues.
    In terms of the culture of secrecy, yes, these records have 
been kept secret, and I don't believe we have seen anything at 
this point to indicate that it is the result of some conspiracy 
or dark motive, but rather these agencies exist for the purpose 
of maintaining the important secrets of our country in 
connection with national security; and this material has been 
lumped in with that generalization. We are dealing with an 
appropriate culture of secrecy for the CIA and, to some lesser 
extent, the FBI as well and the Army; but with respect to these 
records, we can all say with a reasonable degree of common 
sense, there isn't any reason to have maintained their secrecy 
this long other than the inertial forces that continue.
    This was kind of like turning an aircraft carrier in the 
opposite direction. We are dealing with agencies that are based 
on a culture of secrecy, and we have seen very significant 
cooperation and personal dedication efforts which are 
manifested in the resources that have been applied to making 
this statute work and to provide the public with the 
information that is contained in these records.
    Let me say that one of the areas that I feel will be very 
important from a historical perspective, in addition to 
everything we have heard about, is the question of the postwar 
utilization of certain tainted individuals, tainted by war 
crimes, by our intelligence services. I think the exposition of 
this information will stimulate an appropriate debate which 
will be useful for us going forward in the future as to the 
role of expediency; and when the analysis is made of the 
postwar, cold war period, whether the expedient use of 
individuals who had tainted histories was in fact, in the final 
analysis, a disservice rather than a service to our country.
    Only when these materials are released and historians have 
them available to them for this discussion can those 
conclusions be accurately reached on the basis of vigorous 
debate.
    Mr. Owens. I think my time is up, but the situation is 
galloping into greater complexity that you have just outlined. 
Right now, there is a new movement in Germany, stating that the 
Holocaust helped to stop communism. I worry about the capacity 
to retrieve these records having decreased. They are 
deteriorating and decaying, and there are a lot of things that 
you will never get after 50 years.
    Mr. Ben-Veniste. The category of Holocaust deniers, it is 
my view that they are in the same category as people who 
believe that the world is flat. I doubt that this information 
will change many minds in that category, nor do I care. I think 
what is important is that the historical record is supplemented 
so that people of integrity and intelligence can look at this 
material and learn from it.
    Mr. Horn. I have to conclude this hearing. We want to send 
you a few questions, but it will go too long now and we have 
problems on the floor and so forth. But I would like to ask Dr. 
Colonel Thompson the exhibits you gave us, is that appropriate 
if we add that to the record?
    Colonel Thompson. Yes, sir.
    Mr. Horn. Without objection, that will be put in the 
record.
    Mrs. Maloney. My office has been calling your office, Dr. 
Kurtz. Are the documents up on the Internet now?
    Mr. Kurtz. They are at the National Archives in College 
Park, and I will make sure that one of my staff members calls 
your office and assists with any access issues.
    Mrs. Maloney. Great. We have not been able to secure them 
yet, and we have been calling.
    Mr. Kurtz. We will take care of that.
    Mr. Horn. My one last question will be, will you review 
these documents that might have been produced by occupied 
countries--for example, Poland, Ukraine, the USSR, we talked 
about earlier, and Austria which was occupied by Russia, at 
least in the postwar period. Has there been any thought of 
trying to--we mentioned Russia, so apparently they aren't in 
the ball game, but what about Austria?
    Mr. Kurtz. We really have not had an opportunity. We have 
been focused on the task at hand. As we look toward trying to 
have completion in the European phase of the operation, we need 
to consider any other contacts with nations that we need to 
make.
    Mr. Horn. Well, thank you. I thank each of you because you 
have done a marvelous job, and I wish you would let us know on 
the monetary side. We can go and try to beg the cardinals that 
run various and sundry things. It happens to be, if you are 
under the Department of Justice, we just missed the vote; that 
passed last night. If you are under the Archives, I think you 
have got a fund there where you can solve some of those 
problems.
    Since I spent yesterday at your Suitland facility----
    Mr. Kurtz. I understand that it was time well spent, Mr. 
Chairman.
    Mr. Horn. It was.
    Mr. Kurtz. IWG funding would be under the Treasury, Postal 
bill for the National Archives.
    Mr. Horn. So, Mr. Kolbe. I will be with him in a few 
minutes.
    Mr. Kurtz. Mr. Chairman, I have some documents from 
yesterday's release, some copies that you might find of 
interest, perhaps using them with Mr. Kolbe. I will be happy to 
make them available to you.
    Mr. Horn. Without objection, they will be put in the 
hearing record at this point.
    I welcome--Dr. Kurtz, I would welcome a budget of sorts as 
to what is needed.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2522.055
    
    [GRAPHIC] [TIFF OMITTED] T2522.056
    
    Mr. Kurtz. Yes. We will be glad to provide that, Mr. 
Chairman.
    Mr. Horn. Thank you all. With that, we have a staff that we 
thank; and that is Russell George back there, chief counsel, 
staff director; Heather Bailey, professional staff member with 
this hearing; Bonnie Heald, director of communications; Bryan 
Sisk, clerk; Bill Ackerly, intern; Chris Dollar, intern; Meg 
Kinnard, intern.
    And the minority staff, Trey Henderson as counsel and Jean 
Gosa is the minority clerk. And we thank the Official Reporter 
of Debates, Doreen Dotzler.
    With that, we thank you all.
    [Whereupon, at 12:02 p.m., the subcommittee was adjourned, 
subject to the call of the Chair.]


</pre></body></html>
